       OFFICE OF INSPECTOR GENERAL

                                 Catalyst for Improving the Environment



Ombudsman Report



       Ombudsman Review of
       Bunker Hill and Coeur d’Alene
       Basin Superfund Actions
       Report No. 2004-P-00009


       March 24, 2004
Report Contributors:                               Eileen Collins
                                                   Kimberly Crilly
                                                   James Huber
                                                   Fran Tafer




Abbreviations

CERCLA         Comprehensive Environmental Response, Compensation, and Liability Act
EPA            Environmental Protection Agency
MOA            Memorandum of Agreement
NCP            National Contingency Plan
NPL            National Priorities List
OIG            Office of Inspector General
OU             Operable Unit
ROD            Record of Decision




Cover photo:      Aerial photo of former Bunker Hill smelter facility in northern Idaho
                  (Photo from EPA Region 10’s Bunker Hill web page).
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                        March 24, 2004

MEMORANDUM

SUBJECT:            Ombudsman Review of Bunker Hill and Coeur d’Alene Basin
                    Superfund Actions
                    Report Number 2004-P-00009


FROM:               Paul D. McKechnie / s /
                    Acting Ombudsman
                    Office of Congressional and Public Liaison

TO:                 L. John Iani
                    Regional Administrator, Region 10


Attached is our final report on our review of complaints regarding the Bunker Hill and Coeur
d’Alene Basin conducted by the Office of Inspector General (OIG). We undertook this work as a
result of issues brought to the attention of the former Environmental Protection Agency (EPA)
Ombudsman and, subsequently, the OIG Acting Ombudsman, by citizens in Idaho and
Washington State. There is local and Congressional interest in the citizens’ issues.

This report contains findings and recommendations that describe needed improvements the OIG
has identified and the corrective actions the OIG recommends. This report represents the opinion
of the OIG and the findings contained in this report do not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

On February 18, 2004, the OIG issued a draft report to EPA’s Region 10 for review and
comment. On March 3, 2004, we met with the Agency to answer questions and discuss the draft
and the Agency’s expected comments. We received the Agency’s response to the draft report on
March 15, 2004. The Agency’s comments in their response to the draft focused on the accuracy
of the report and provided suggestions for clarifications. In general, the Agency agreed with our
report and its findings and recommendations. We provide a summary and general evaluation of
Agency comments and our response at the end of each section of this report. We include the full
text of EPA’s comments in Appendix A.
The findings in this report are only applicable for OIG Ombudsman purposes. Additionally,
these findings are not binding in any enforcement proceeding brought by EPA or the Department
of Justice under the Comprehensive Environmental Response, Compensation, and Liability Act
to recover costs incurred not inconsistent with the National Contingency Plan.

We have no objection to the further release of this report to the public.

Action Required

In accordance with EPA Manual 2750, you are required to provide this office with a written
response within 90 days of the final report date. The response should address all
recommendations. For corrective actions planned but not completed by the response date, please
describe the actions that are ongoing and provide a timetable for completion. Reference to
specific milestones for these actions will assist in deciding whether to close this report in our
assignment tracking system.

If you or your staff have any questions regarding this report, please contact me at
(617) 918-1471 or Fran Tafer, the Assignment Manager, at (202) 566-2888.
                        Executive Summary
              The Environmental Protection Agency (EPA) Office of Inspector General (OIG)
              conducted a review of issues that citizens brought to our attention regarding the
              Bunker Hill Superfund site and the surrounding Coeur d'Alene Basin area, located
              primarily in northern Idaho. Many of the issues raised involved scientific
              concerns that are being considered by a National Academy of Sciences study
              approved and funded by Congress and contracted for by EPA, and we presented
              the citizens’ scientific concerns to the Academy. We then grouped the remaining
              citizens’ concerns into four main issues for our review. Following are those
              issues and what we found regarding each.


1. Site Listing: Did EPA follow laws and regulations in listing the site? Also, why were the
areas outside the "Box" (those areas included in Operable Unit 3, also known as the Basin) not
included in the original cleanup work?

              We found that EPA followed laws and regulations in listing the site. We
              concluded that EPA made a logical decision to first do cleanup work in the
              Bunker Hill Box and then later to study areas outside the Box and pursue further
              cleanup work on specific targeted areas in the Coeur d'Alene Basin. EPA is
              permitted, and chose, to address the most critical areas first, and we consider that
              a logical decision. In the interest of being open to the public, we recommend that
              EPA post this report and any relevant, related information on its web site.


2. Basin Commission: Did the Comprehensive Environmental Response, Compensation, and
Liability Act authorize the Coeur d'Alene Basin Commission to plan, prioritize, and perform
response/remedial actions, as specified in the September 2002 Record of Decision?

              The Act does not address the creation of an independent body, like the Basin
              Commission, to plan, prioritize, and perform response/remedial actions.
              However, the National Contingency Plan – the Federal Government’s blueprint
              for responding to hazardous substance releases – encourages the involvement of
              organizations to coordinate responsible party actions; foster site response; and
              provide technical advice to the public, Federal and State governments, and
              industry. We concluded that the Basin Commission, as a coordinating body, is
              allowed under the National Contingency Plan definition. We recommend that
              EPA Region 10 both clarify its relationship, under CERCLA, to the Basin
              Commission and encourage the Commission to clarify its exact status to its
              members and other stakeholders.



                                                i
3. Lake Management Plan: Did the Coeur d'Alene Lake Management Plan adequately address
cleanup under the Clean Water Act? Will the actions listed in the Plan support an EPA decision
to conduct a partial deletion of the Lake from the National Priorities List? How will the Plan be
implemented without mandatory dedicated funding (also referred to as the “unfunded mandate”
issue)?

               We concluded that the Coeur d’Alene Lake Management Plan could better
               address cleanup under the Clean Water Act. The management actions
               recommended in the Plan lack detail. Also, the actions proposed in the Plan do
               not fully support an EPA decision to conduct a partial deletion of the Lake from
               the NPL. Further, due to the lack of dedicated funding for Plan implementation,
               EPA, the State of Idaho, and the Coeur d’Alene Tribe should come to some form
               of consensus about the dedication of funds to pay for the implementation of the
               Plan. In our recommendations, we encourage better implementation of the Plan,
               that an attempt be made to resolve disagreement on who will pay for remedial
               actions, and that some form of consensus be reached on the dedication of funds.


4. Community Involvement and Economic Aspect: Did EPA properly follow laws and
regulations in handling community involvement during the Superfund process at Bunker
Hill/Coeur d'Alene? Did EPA take steps to alleviate the economic downturn in Shoshone
County?

               We concluded that the quantity of past community involvement has met
               standards. We found many instances where EPA took positive steps to involve
               the community. We found EPA followed laws and EPA regulations and guidance
               on community involvement, and we noted considerable input by the community
               for the remedial design work for the overall Coeur d’Alene Basin. Also, we found
               evidence that EPA took steps to help alleviate the economic downturn in
               Shoshone County, which includes the Bunker Hill Box and much of the Coeur
               d’Alene Basin.




                                                ii
                                       Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           i



 Introduction
          Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
          Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1
          Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               3




 Results of Review
          1.    Site Listing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    5
          2.    Basin Commission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            8
          3.    Lake Management Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 11
          4.    Community Involvement and Economic Aspects . . . . . . . . . . . . . . . . . . . . . . .                                 15




 Appendices
          A.    EPA Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   19
          B.    Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     25




                                                                     iii
                             Introduction
Purpose
          The Environmental Protection Agency (EPA) Office of Inspector General (OIG)
          conducted a review of issues that individual citizens and citizens’ groups brought
          to our attention regarding the Bunker Hill and Coeur d'Alene Basin site in
          northern Idaho. The goal of the OIG Ombudsman is to independently review and
          report on public concerns regarding EPA activities, including Superfund issues.

          Based on the issues raised, our objectives were to determine:

            1.   Did EPA follow laws and regulations in listing the site? Also, why were
                 the areas outside the "Box" (those areas included in Operable Unit 3, also
                 known as the Basin) not included in the original cleanup work?

            2.   Did the Comprehensive Environmental Response, Compensation, and
                 Liability Act (CERCLA) authorize the Coeur d'Alene Basin Commission
                 to plan, prioritize, and perform response/remedial actions, as specified in
                 the September 2002 Record of Decision?

            3.   Did the Coeur d'Alene Lake Management Plan adequately address
                 cleanup under the Clean Water Act? Will the actions listed in the Plan
                 support an EPA decision to conduct a partial deletion of the Lake from
                 the National Priorities List (NPL)? How will the Plan be implemented
                 without mandatory dedicated funding (also referred to as the “unfunded
                 mandate” issue)?

            4.   Did EPA properly follow laws and regulations in handling community
                 involvement during the Superfund process at Bunker Hill/Coeur d’Alene?
                 Did EPA take steps to alleviate the economic downturn in Shoshone
                 County?




Background
          Mining within the Coeur d'Alene Basin began more than 100 years ago. It
          generated tailings (low grades of mining ore remaining after minerals are
          extracted), waste rock, concentrates, and smelter emissions. These wastes contain
          hazardous substances, including arsenic, cadmium, lead, and zinc. In addition, the
          water that drains from many abandoned adits (almost horizontal entrances to
          mines), as well as seeps, contain elevated levels of these metals.

                                           1
Until 1968, most tailings were discharged directly into the South Fork of the
Coeur d'Alene River or its tributaries. Since 1968, tailings have been impounded
or placed back in the mines, and current mining practices contribute relatively
little to the Coeur d'Alene River system compared to existing contamination
resulting from pre-1968 practices. An estimated 62 million tons of tailings had
been discharged to streams prior to 1968, containing an estimated 880,000 tons of
lead and more than 720,000 tons of zinc. Water concentrations of metals such as
arsenic, cadmium, lead, and zinc have increased.

These practices have contaminated substantial portions of the Basin with
concentrations of metals that are potentially hazardous to humans, animals, and
plants. To deal with these threats, EPA has taken several actions. In 1983, EPA
placed the Bunker Hill Mining and Metallurgical Complex on the Superfund NPL.
The site includes mining-contaminated areas in the Coeur d'Alene River corridor,
adjacent flood plains, down stream water bodies, tributaries, and fill areas, as well
as the 21-square-mile Bunker Hill "Box" (the Box) located in the area surrounding
the historic smelting operations (see center of map). The Box and the primary
mining source areas are located in Shoshone County, Idaho. However, much of
the contaminated lower basin and lake areas are located in Kootenai County,
Idaho. Contamination also extends into Spokane County, Washington.




         Map: Bunker Hill Box and Coeur d’Alene River Basin
         (Coeur d’Alene Basin Study Area Map from EPA Region 10 web site)

                                  2
        The 21-square mile box encompasses EPA’s initial area of concern regarding
        cleanup, and includes the mines and smelter. The Coeur d’Alene “Basin”
        includes the Box plus the surrounding area in northern Idaho and parts of
        Washington State. Specific areas within the Basin in addition to the Box area
        have been determined to be contaminated and targeted for cleanup. The Basin is
        within EPA Region 10.

        EPA conducted a number of removal actions to address immediate threats to
        public health. EPA identified three operable units (OUs) for cleanup within the
        Bunker Hill/Coeur d’Alene Basin site, and various Records of Decision (RODs)
        have been signed to initiate cleanup actions within the OUs. Specifically:

         OU1:     EPA signed a ROD in 1991 to initiate cleanup in the populated areas
                  of the Bunker Hill Box.

         OU2:     EPA signed another ROD in 1992 to address the non-populated areas
                  of the Box.

         OU3:     In September 2002, EPA signed an interim ROD that specified selected
                  interim remedial actions over the next 30 years for mining-related
                  contamination in the broader Coeur d'Alene Basin. This interim ROD
                  identified anticipated costs totaling $360 million.




Scope and Methodology
        Due to citizen complaints and concerns, the former National Ombudsman (then
        residing in EPA's Office of Solid Waste and Emergency Response) opened a case
        on the Coeur d'Alene Basin and Bunker Hill Box based on two letters from Idaho
        Congressional representatives in 1999 and 2000. When the OIG acquired the
        Ombudsman function in April 2002, we continued this case.

        At the invitation of the Idaho Congressional delegation, the Acting Ombudsman
        and OIG staff made a July 2002 trip to Spokane, WA; Coeur d'Alene, ID; and the
        Silver Valley area of Idaho, including Smelterville, Wallace, and Kellogg. During
        this trip, the Ombudsman and staff met with 18 citizen groups, tribes, State and
        local governments, and citizens in a 3-day period to listen and try to understand
        the concerns in the community.

        Upon our return, we categorized the concerns and complaints into various areas
        for overall review. Four of those areas were designated as our primary objectives
        and are the focus of this report. Due to the breadth and volume of concerns and
        questions raised, our objectives and this report sought to provide answers and
        information on the categorical areas we deemed most relevant. We did not

                                        3
attempt to individually address each specific citizen or citizen’s group question,
concern, or complaint. Citizen concerns regarding whether EPA or Idaho would
lead the cleanup were dropped from our review because the September 2002 ROD
designated EPA as the lead organization. We also dropped an issue regarding the
site boundary because the site boundary decision was vacated by the courts. Also,
a large number of the concerns involved scientific areas that are being considered
by a National Academy of Sciences study approved and funded by Congress and
under a contract with EPA; therefore, we did not conduct a separate review of
those concerns.

We conducted our review from July 2002 through August 2003. We researched
the files we obtained from the former Ombudsman. As mentioned above, we
traveled to the site for an overview, and we discussed issues and concerns with
citizens and citizens’ groups. We interviewed key officials in Region 10 who
worked on one of the three Operable Units of the Superfund site.

We performed our Ombudsman review and analysis in accordance with
Government Auditing Standards, issued by the Comptroller General of the
United States. However, we did not review compliance with laws and
regulations, except for those laws and regulations affecting a specific issue.
Also, we did not review internal management controls concerning the CERCLA
program. Our review was limited to responding to citizen, citizen group, and
other concerns and issues, as described in our objectives. We did not seek to
reproduce or re-analyze any testing, sampling, or analysis that EPA had conducted
in reference to this site.




                                4
                     Results of Review

1. Site Listing
         Question: Did EPA follow laws and regulations in listing the site? Also, why
         were the areas outside the "Box" (those areas included in Operable Unit 3, also
         known as the Basin) not included in the original cleanup work?


         We concluded that EPA made a logical decision to first do cleanup work in the
         Bunker Hill Box and then later study areas outside the Box and pursue further
         cleanup work on specific targeted areas in the Coeur d'Alene Basin. While the
         first ROD to address concerns within the Box was issued in 1991, and the ROD to
         address Basin concerns outside the Box was not issued until 2002, EPA is
         permitted, and chose, to address the most critical areas first. We considered
         EPA’s decision to perform work on the more critical areas within the Box first to
         be logical.

         Laws and Regulations Followed

         It is common for EPA to address large and complicated sites by breaking the work
         into smaller units called operable units. Usually, EPA prioritizes the most
         critically needed cleanup work in such units to prioritize the cleanup. EPA signed
         RODs in 1991 and 1992 for cleanup actions in Operable Units (OUs) 1 and 2,
         respectively. Both units covered areas within the 21-square-mile Bunker Hill
         Box, which included the Bunker Hill Mine and smelter. In 2002, EPA signed a
         ROD to perform additional cleanup in the Coeur d’Alene Basin (OU 3), which
         includes specific areas targeted for cleanup within a larger area surrounding the
         Box.

                Operable Units 1 and 2. To determine whether EPA followed laws and
                regulations in listing the site, we reviewed the hazardous ranking system
                scoring documents and other pertinent EPA documents. We also reviewed
                EPA's decisions on determining what were the site boundaries for the
                Bunker Hill cleanup. The Bunker Hill site was listed on the NPL on
                September 8, 1983. The original August 13, 1982, hazardous ranking
                system package for the Bunker Hill facility said that, “Site boundaries
                extend from Smelterville down the Coeur d'Alene River to Coeur d'Alene
                Lake” – within and outside the Box and within the Basin.

                During our review, EPA Region 10 personnel told us the most significant
                human health concerns were within the Box, so they decided to start their


                                          5
              work there. EPA Region 10 added in a 1985 letter that their preliminary
              study area, the Box, corresponded to the area of a 1983 health study.
              However, EPA further said that as it continued its investigations, the area
              of concern might expand or contract, depending on what was found.

              Operable Unit 3. Later, EPA decided to further address contamination
              outside the Box and within the Basin. A December 26, 1984, EPA letter
              discussed that EPA may expand the study area if EPA finds extensive
              groundwater contamination coming from beyond the study boundaries.
              Approximately a year after EPA’s NPL site listing, EPA stated in a 1984
              letter that releases exist outside the Box. In 1998, EPA initiated a
              remedial investigation and feasibility study for areas outside the Box but
              within the Coeur d'Alene Basin. On September 12, 2002, EPA signed an
              interim ROD that specified selected interim remedial actions over the next
              30 years for the broader Coeur d'Alene Basin. This interim ROD presents
              an incremental cleanup strategy for protecting human health and the
              environment in the Upper and Lower Basins of the Coeur d'Alene River
              and the Spokane River Basin west of the Idaho border.

              According to EPA, scientific and sampling studies justified the need for
              further remedial cleanup work outside the Box. Citizen concerns and
              doubts about the decision to clean up the Basin prompted a request by the
              Idaho Congressional delegation for a re-examination of these studies. The
              National Academy of Sciences is currently conducting a study of EPA’s
              Basin assessment and cleanup decisions.

Recommendation
       1-1    In the interest of being open to the public and getting wide dissemination
              of useful information, we recommend that EPA Region 10 post a copy of
              this report and the finalized National Academy of Sciences study on the
              EPA Superfund Coeur d’Alene Basin web site to ensure availability to
              citizens.

Agency Comments and OIG Response
       The Agency’s comments on section 1 of the report (and the Executive Summary,
       Background, and Scope and Methodology) focused on the accuracy of the report
       and provided suggestions for clarifications. In response to Agency suggestions,
       we made revisions to the report where appropriate. For example, we replaced a
       site map in the draft report with a Region 10-suggested map that is more inclusive
       in relation to the States involved and the area covered. We should note here that
       specific page numbers and references in the Agency’s response (located at
       Appendix A) to the OIG draft report may or may not relate to page numbers and


                                        6
references in the final report. EPA indicated that it will respond to the specific
recommendation after the final report is published.




                                  7
2. Basin Commission
       Question: Did CERCLA authorize the Coeur d'Alene Basin Commission to
       plan, prioritize, and perform response/remedial actions, as specified in the
       September 2002 ROD?


       CERCLA does not address the creation of an independent body, like the Basin
       Commission, to plan, prioritize, and perform response/remedial actions.
       However, the National Contingency Plan (NCP) – the Federal Government’s
       blueprint for responding to hazardous substance releases – encourages the
       involvement of organizations to coordinate responsible party actions; foster site
       response; and provide technical advice to the public, Federal and State
       governments, and industry. We believe the Basin Commission, as a coordinating
       body, is allowed under the NCP definition in order to foster site response.

       Basin Commission as a Coordinating Body

       In 2001, the State of Idaho passed the Basin Environmental Improvement Act,
       codified at Title 39, Health and Safety, Chapter 81. The Act sets forth the
       responsibilities, authorities, and limitations of the Basin Environmental
       Improvement Project Commission (Basin
       Commission). The purpose of the Commission
       was to fulfill the Basin work plan, which                 Board of Commissioners
       consisted of EPA’s RODs and other measures
                                                              1. United States Government
       related to heavy metal contamination. The              2. State of Idaho
       board of commissioners is made up of seven             3. State of Washington
       representatives from various Federal, State,           4. Shoshone County
       tribal, and local governments, as shown in the         5. Kootenai County
                                                              6. Benewah County
       accompanying box. Powers have been given to
                                                              7. Coeur d’Alene Tribe
       the Commission by State statute to carry out the
       work plan, including hiring personnel and
       contracting for work.

       The seven governmental agencies represented on the Commission, along with the
       Spokane Tribe of Indians, U.S. Department of Interior, and U. S. Forest Service,
       signed a Memorandum of Agreement (MOA) on August 13, 2002. Based on the
       MOA, the Commission will coordinate work with other entities that have
       jurisdiction and interest in the Basin. EPA believes that the MOA outlines the
       terms of Federal participation. Further, EPA Region 10 believes that the MOA’s
       terms are supported by the NCP and, thus, EPA reserves the rights and
       responsibilities pursuant to Federal law.

       The agreement recognizes the importance of public participation in the
       Commission, and the parties to the agreement agree to use the Commission as a

                                         8
       vehicle to coordinate public comment and involvement. Each agency reserves its
       individual rights and responsibilities that exist by law. In addition, the agreement
       recognizes that it is the responsibility of the United States to “exercise
       governmental authority” under CERCLA.

       The Commission is unique to the ROD implementation process, providing
       recommendations for the work plan to EPA even though EPA normally develops
       the work plans. The Commission, through the annual and 5-year work plans,
       identifies the projects, priorities, and funding needs. EPA, at its discretion, can
       enter into cooperative agreements with the implementing agencies recommended
       by the Commission for those projects that are funded. The NCP encourages
       organizations to assist in the coordination of "responsible party actions, foster site
       response, and provide technical advice to the public, federal and state
       governments, and industry," although EPA has the final authority to ensure
       remedial actions under its RODs are carried out.

       CERCLA/NCP Authorizations

       Though CERCLA does not, the NCP does define a lead and support agency as an
       agency that provides an On Scene Coordinator or the Remedial Project Manager,
       and notes that EPA or “a state (or political subdivision of a state)” can be a lead or
       support agency. The 2002 ROD identifies the lead agency as EPA. The support
       agencies identified are the Idaho Department of Environmental Quality, State of
       Washington Department of Ecology, and the Coeur d'Alene Tribe.

       The Basin Commission was created by the Idaho legislature through a State
       statute. While the Commission was given powers and responsibilities, the
       Commission itself “cannot represent the State of Idaho” in negotiations “with
       representatives of the State of Washington, Coeur d’Alene Tribe, and the United
       States of America.” However, those negotiations can be done by the Director of
       the Idaho Department of Environmental Quality, the Attorney General of Idaho,
       the Governor, or their representatives regarding agreements, compacts, and
       participation in the commission.

Recommendation
       We recommend that Region 10:

       2-1    Encourage the Basin Commission to clarify its exact status, especially
              including a consensus among all Basin Commission members, so that its
              future actions and decisions, and especially its interactions with EPA
              under CERCLA, will be based on a settled definition of the Basin
              Commission’s powers and abilities.

       2-2    Clarify to the Basin Commission, inclusive of its board of directors and

                                         9
              those who signed the MOA, the region’s relationship with the Commission
              under CERCLA and other applicable laws and regulations.

Agency Comments and OIG Response
       EPA’s comments regarding section 2 of the report focused on the accuracy and
       completeness of the report and provided suggestions for clarifications. In
       response to EPA suggestions, we made revisions in the report where appropriate.
       For example, we included the full list of MOA signatories whereas we had not in
       the draft report. EPA indicated that it will respond to the specific
       recommendations after the final report is published.




                                      10
3. Lake Management Plan
       Question: Did the Coeur d'Alene Lake Management Plan adequately address
       cleanup under the Clean Water Act? Will the actions listed in the Plan support an
       EPA decision to conduct a partial deletion of the Lake from the NPL? How will
       the Plan be implemented without mandatory dedicated funding (also referred to as
       the “unfunded mandate” issue)?


       We concluded that the Coeur d’Alene Lake Management Plan could better
       address cleanup under the Clean Water Act. The management actions
       recommended in the Plan lack detail. Also, the actions proposed in the Plan do
       not fully support an EPA decision to conduct a partial deletion of the Lake from
       the NPL. Further, due to the lack of dedicated funding for Plan implementation,
       EPA, the State of Idaho, and the Coeur d’Alene Tribe should come to some form
       of consensus about the dedication of funds to pay for the implementation of the
       Plan. In our recommendations, we encourage better implementation of the Plan,
       that an attempt be made to resolve disagreement on who will pay for remedial
       actions, and that some form of consensus be reached on the dedication of funds.

       Clean Water Act

       EPA noted in a March 25, 2003, letter to the Idaho Department of Environmental
       Quality and the Coeur d’Alene Tribe that the Lake Management Plan should
       include accountability checkpoints, a mechanism for coordination, and a timetable
       for implementation. However, these actions have not been taken.

       The Clean Water Act provides appropriate guidance for the development of an
       adequate management plan. The Lake Management Plan could better address
       cleanup if it contained some of the provisions that are listed in section 319,
       Part (b), including:

       •   A schedule containing annual milestones for implementation of the plan.

       •   An adequate list and description of best management practices.

       •   A certification from the State Attorney General for Idaho that the laws of the
           State provide adequate authority to implement the plan.

       •   Adequate practices and measures to reduce the level of pollution in the Lake
           that result from nonpoint sources.




                                        11
Partial Deletion of the Lake from the National Priorities List

Actions proposed in the Plan and its subsequent Addendum do not fully support
an EPA decision to conduct a partial deletion of the Lake from the NPL.

EPA determined in the ROD for OU 3 that any actions to remove contamination
from the Lake's bed would have caused more dispersion of contamination within
the water column, thereby increasing the potential for harm to human and
ecological receptors. In addition, the costs of active remediation of the Lake were
prohibitive. The ROD deferred action on the Lake to the future implementation of
the Lake Management Plan to reduce the probability of additional metals
movement from the sediments at the lake bottom into the lake water. EPA agreed
to consider a “No Further Remedial Action Required” recommendation for the
Coeur d'Alene Lake, and to consider a partial deletion of the Lake from the NPL,
provided that the Plan would adequately manage the contamination in the Lake.

The Plan was developed in 1995, and a draft Addendum to the Plan was released
for public comment in 2003. However, we do not consider the actions proposed
in the Plan and its draft Addendum to fully support an EPA decision to conduct a
partial deletion of the Lake from the NPL. The recommended actions made in
the Plan included the encouragement of best management practices among the
differing responsible parties, such as farmers, land developers, and forest
harvesters. It also recommended actions for monitoring lake water quality to track
the mass balance of nutrients and metals within the Lake; the health assessment of
fish, waterfowl, and other wildlife; the identification of additional nutrient loading
sources (such as from sewage and sink/shower water systems from boats and
private homes); and the beginning of stream bank stabilization projects.
However, the best management practices were not fully identified; the
identification and rectification of additional nutrient loading sources and unstable
stream banks were not mandatory; and the Plan relied primarily on education for
the accomplishment of its goals.

Further, although the Basin Commission's 2003 Work Plan implemented part of
the Management Plan by including an Education and Information Program and a
3-year Lake Monitoring Plan, the Program only provided for voluntary changes in
actions that affect the Lake's water quality, and its impact will not be known for
several years. In addition, the Lake Monitoring Plan will have no direct impact on
the Lake's water quality because it is a measure designed to record the results in
the Lake of remedial actions conducted in the streams and tributaries that feed the
Lake, and not a more proactive measure.

Unfunded Mandate

The Coeur d'Alene Tribe believes that an “unfunded mandate” was created when
EPA decided to address Coeur d'Alene Lake contamination through a Lake


                                 12
       Management Plan without identifying any funding to implement it. Between
       January and March 2003, the Tribe, Idaho, and EPA exchanged ideas in a group
       of letters. During this exchange, the Tribe requested funds be identified for
       implementation of specific projects, a long-term lake water monitoring plan, and
       payment of staff to run the projects before the Plan is approved.

       In addition, the EPA informed the State of Idaho that remediation activities need
       to begin in the upper basin before EPA will agree to consider a partial deletion of
       the Lake from the NPL, but the State is unclear whether EPA wants it to pay for
       those remedial actions. Due to the current lack of dedicated funding for Plan
       implementation, EPA, the State of Idaho, and the Coeur d’Alene Tribe should
       come to some form of consensus about the dedication of funds to pay for
       implementation of the Plan. However, the State of Idaho does not agree that
       hiring of staff, or the identification of funds for specific projects, needs to be
       accomplished before the Plan is approved.

Recommendations
       We recommend that EPA Region 10:

       3-1    Encourage the State of Idaho and the Coeur d’Alene Tribe to implement
              within the Coeur d’Alene Lake Management Plan some of the
              recommendations in its March 25, 2003, letter, including adding
              accountability checkpoints, a coordination mechanism, and an
              implementation timetable.

       3-2    Clarify with the State of Idaho, and other stakeholders, who will pay for
              upstream remedial actions and Lake management activities.

       3-3    Work with the State of Idaho and the Coeur d’Alene Tribe to reach some
              form of consensus about the dedication (or assignment) of funds or
              funding sources to pay for the implementation of the Lake Management
              Plan.

Agency Comments and OIG Response
       We made minor corrections and wording changes the Agency suggested to clarify
       Lake Management Plan issues, CERCLA and Clean Water Act laws and
       guidance, EPA’s actions and plans, and our recommendations. The Agency
       believed it would be helpful to include EPA’s view on two issues: details on Lake
       Management Plan funding and EPA’s belief that there is no “mandate” for a Lake
       Management Plan under CERCLA. We have not added EPA’s discussion on
       these two issues into section 3, mainly due to their length; however, the reader
       may view Region 10's comments in Appendix A.


                                        13
Additionally, though Region 10 asked us to provide more information about why
the Lake Management Plan and its draft addendum do not fully support an EPA
decision to conduct a partial deletion of the Lake from the NPL, we have not
added more information. We also do not provide specific recommendations about
what actions would be supportive of such a decision. On both these issues, we
believe it is up to the Agency to develop a method to determine which of its
recommended actions presented in the Plan must be fulfilled and how and when
implementation of these actions will enable the partial deletion approach.

Finally, the Agency made extensive comments to our “Unfunded Mandate”
subsection, regarding EPA’s view on funding for upstream cleanup actions and
the Lake Management Plan, and EPA’s interactions with Idaho. Region 10 asked
that we explain whether our recommendation 3-2 refers to upstream remedial
actions or lake management activities; it refers to both. We did not make any
other changes to that subsection because we believe (a) clarifying the
recommendation addresses the issues raised; and (b) EPA’s response to our draft
report further demonstrates the stakeholders’ differences and confusion about
funding for cleanup actions, both upstream and for the Lake Management Plan
(see Appendix A).

EPA indicated that it will respond to the specific recommendations after the final
report is published.




                                14
4. Community Involvement and Economic Aspects
       Question: Did EPA properly follow laws and regulations in handling community
       involvement during the Superfund process at Bunker Hill/Coeur d'Alene? Did
       EPA take steps to alleviate the economic downturn in Shoshone County?


       We concluded that the quantity of past community involvement met standards.
       Although citizen groups with whom we spoke expressed concern that EPA did not
       seriously consider their comments about proposed actions in the ROD, we found
       many instances where EPA took positive steps to involve the community. We
       noted considerable input by the community for the remedial design work for OU
       3. Also, we found evidence that EPA took steps to help alleviate the economic
       downturn in Shoshone County.

       Community Involvement

       One of the goals of the Superfund program is to promote public involvement that
       is informed, reasonable, thoughtful, solution-oriented, and collaborative. We
       reviewed community involvement at the Bunker Hill/Coeur d’Alene Superfund
       site and determined that:

       •   EPA developed Community Involvement Plans, as required.

       •   EPA conducted over 200 public meetings.

       •   EPA issued fact sheets and advertised significant events in the remedial
           investigation and feasibility study and ROD processes.

       •   EPA maintained six information repositories, including an Administrative
           Record at North Idaho College in Coeur d'Alene.

       •   EPA site files contain numerous volumes of public participation and public
           comments.

       •   The Citizens Coordinating Council is currently in place to allow citizen input
           to the Basin Commission for remedial design/remedial action phase work.
           Also, there is currently considerable community involvement through the
           Technical Leadership Group and its Project Focus Teams. Local governments
           have representatives on the Technical Leadership Group. Interested citizens
           are invited to participate in the Project Focus Teams.

       •   The Lake Management Plan states that Technical Advisory Groups are a
           vehicle for public participation.




                                       15
We found that EPA received more than 3,300 comments on the proposed Basin
Cleanup Plan from approximately 1,300 different individuals. EPA extended the
comment period twice, for a total of 120 extra days, in response to public
requests. Part 3 of the ROD contains many of the public's comments and EPA's
response to those comments.

In addition to comments noted to EPA in the ROD, two of the citizen groups we
talked to expressed concern that EPA did not seriously consider their comments
about the proposed actions in the ROD. However, as previously outlined, we
found many instances where EPA took positive steps to involve the community.
We found that EPA followed laws and its own regulations and guidance on
community involvement. Based on our review of Region 10 documentation, we
concluded that community involvement has met requirements and, furthermore,
gone beyond requirements. The inclusion of the community in efforts such as the
Citizens Coordinating Council is evidence of this involvement. Community
involvement, however, does not mean unanimous agreement.

Economic Aspects

Various steps taken by EPA should help alleviate the economic downturn in
Shoshone County. EPA has encouraged local hiring for cleanup work, issued
grants in the area, and been flexible and creative in helping the County.
According to EPA documents, up to $42 million was spent locally on labor,
materials, rentals, taxes, and utilities. EPA authorized and funded hazardous
materials training to over 100 local workers. During peak construction years on
the Box cleanup, more than 200 local people were employed. EPA also
committed $200,000 in grants to help the viability of the local economy.

EPA also provided documentation on flexible and creative ways it has tried to
help the local community. The first Superfund Prospective Purchaser Agreement
and Covenant-Not-to-Sue in the United States was used to facilitate the building
of the Silver Mountain Gondola at the Bunker Hill Box. EPA has released
Superfund Liens on both commercial and residential properties formerly owned
by Bunker Limited Partnership (and related entities such as Bunker Hill Mining
Co. and MCI) to remove potential "clouds" and allow property transfers. EPA has
also given special attention to improving the appearances of the remediated areas
by use of fertilization, seeding, and nature trails. Other projects included allowing
more useable land for future development, helping local businesses, and
supporting flood control and street projects.

In addition, EPA reduced its recovery in the Gulf Resources, Inc., bankruptcy to
ensure that a group of Gulf retirees would receive affordable medical coverage.
This benefitted the Gulf retirees whose medical coverage had been adversely
impacted by Gulf's mishandling of assets and then the bankruptcy. Gulf had
owned the Bunker Hill mine.


                                 16
       We do not consider any recommendations regarding EPA’s community
       involvement and its role regarding the economy in the Coeur d’Alene Basin area
       to be necessary.

Agency Comments and OIG Response
       The Agency suggested some clarifying changes, which we made to the final
       report. We dropped an introductory paragraph under the Economic Aspects
       subsection and added information on the Technical Leadership Group.




                                      17
18
                                                                                  Appendix A

                     EPA Response to Draft Report




Reply To
Attn Of: RA-140



Mr. Paul D. McKechnie
Acting Ombudsman
Office of Congressional and Public Liaison
EPA Office of Inspector General
One Congress Street, Suite 1100
Boston, MA 02114-2023

RE: Draft Ombudsman Report Ombudsman Review of Bunker Hill and Coeur d’Alene Basin

Dear Mr. McKechnie:

        Enclosed please find the EPA Region 10 comments on the Draft Ombudsman Report
issued by your office on February 18, 2004. These comments focus on the factual accuracy of
the report and provide suggestions for corrections and clarifications. We understand that the
final report will provide an assessment of our comments.

       Thank you for the opportunity to comment on the draft report and also for your work in
responding to the concerns raised by the public regarding the Bunker Hill/Coeur d’Alene Basin
Cleanup. Once you issue a final report, EPA Region 10 will respond to your final
recommendations.

       If you have any questions about our comments, please contact Sheila Eckman, the Bunker
Hill/Coeur d’Alene Basin Team Leader, at (206)553-0455.


                                                                  Sincerely,

                                                                  /s/ L. John Iani 3/15/04

                                                                  L. John Iani
                                                                  Regional Administrator

                                              19
Enclosure
cc:    Frances Tafer, OIG
       Jamie Huber, OIG




                            20
                               EPA Region 10
    Comments on Draft Ombudsman Review of Bunker Hill and Coeur d’Alene Basin
                              Superfund Actions
                                   3/15/04

       The following comments are provided on the Draft “Ombudsman Review of Bunker Hill
and Coeur d’Alene Basin Superfund Actions” The comments address factual accuracy and
provide suggestions for clarification of background information and recommendations.

Executive Summary

Please see comments in the “Results of Review” section.

INTRODUCTION

Background
Page 2, paragraph 3: “The Box and much of the Basin is located in Shoshone County, Idaho”.
The Box and the primary mining source areas are located in Shoshone County. However, much
of the contaminated lower basin and lake areas are located in Kootenai County, Idaho.
Contamination also extends into Spokane County, Washington.

The map provided does not represent the entire area subject to Operable Unit 3. We suggest you
use Figure 1.0-1 from the ROD (Basin Study Area) and will forward this map to you in electronic
format.

Scope and Methodology
Page 4, paragraph 1: “Concerns regarding EPA versus Idaho cleanup were dropped...” The
concern here is unclear - was the issue whether EPA versus the State of Idaho would lead and/or
fund the cleanup?

Please consider the following change: “The findings contained in this report are only applicable
for OIG Ombudsman purposes. Additionally, the findings contained in this report are not binding
in any enforcement proceeding brought by EPA or the Department of Justice under Section 107
of the Comprehensive Environmental Response, Compensation, and Liability Act to recover
costs incurred not inconsistent with the National Contingency Plan” This would also cover
actions under Section 106 or another statutory provision.

RESULTS OF REVIEW

1. Site Listing

Objectives: The draft report reads “Also, why were the areas outside the “Box” (those areas
included in the Basin listing) not included in the original cleanup work?” The statement in
parentheses is not clear - areas outside the Box were included in the Bunker Hill site listing. We



                                                21
suggest this be clarified to read “(those areas included in Operable Unit 3, also known as the
Basin)”.

Page 5, paragraph 1: “Based on our analysis, we concluded that EPA followed laws and
regulations in the original site listing on OUs 1 and 2.” The site listing did not identify Operable
Units and was not limited to OUs1 and 2 (the Box).

Page 5, paragraph 2: “Both units covered areas within the 21-square-mile Bunker Hill Box,
which included the mines and smelter”. The largest area mine, the Bunker Hill, is located in the
Box. However, there are many other mine and mill sites which represent sources of
contamination, which are outside of the Box. Suggested clarification: “...which included the
Bunker Hill Mine and smelter.”

2. Basin Commission

Page 7, paragraph 2: “Powers have been given to the Commission to carry out the work plan,
including hiring personnel and contracting for work”. It should be clarified that these powers are
granted by State, not Federal, legislation. The Memorandum of Agreement outlines the terms of
Federal participation. EPA Region 10 believes that the terms of this MOA are supported by the
NCP and reserve our rights and responsibilities pursuant to federal law.

Page 7, paragraph 3: It might be helpful to indicate that the MOA was also signed by
representatives of the US Department of Interior, the US Forest Service, and the Spokane Tribe
of Indians as “coordinating entities”.

Page 8, paragraph 2: Delete the last 2 sentences. Change of lead agency is not a change to the
selected remedy in the ROD and thus does not require a formal ESD or ROD amendment. In
practice, however, EPA would involve stakeholders in this decision.

Page 8, paragraph 3: It would be helpful to include the basis for the statements regarding who
can represent the State of Idaho in negotiations.

Recommendation: Please clarify whether the intent is for Region 10 to encourage the Basin
Commission board to provide clarification of its status, or for Region 10 to clarify EPA’s role
with regard to the Basin Commission, or both.

3. Lake Management Plan

Page 9, paragraph 2: The EPA letter to IDEQ and the Coeur d’Alene Tribe is dated March 25,
2003, not May 2003.

Page 9, paragraph 2: Please clarify whether and how section 319 of CWA provides guidance on
how plan should work.




                                                 22
Page 10, paragraph 1: “...an Addendum to the Plan was completed in 2003". A draft Addendum
to the Plan was issued for public comment in 2003, but a final Addendum has not been issued.
IDEQ and the Coeur d’Alene Tribe are evaluating public comments and determining the next
steps.

You conclude that the Lake Management Plan (LMP) and its addendum do not fully support an
EPA decision to conduct a partial deletion of the Lake from the NPL. It would be helpful to
provide more information about this conclusion. Could you provide specific recommendations
about what actions would be supportive of such a decision? If the plan is revised with your
recommendations to include provisions meeting the requirements of the Clean Water Act, would
it be supportive of a decision to conduct a partial deletion of the Lake?

It may be helpful to include EPA’s view of Lake Management Plan funding. EPA has provided
Superfund funding to the State of Idaho and the Coeur d’Alene Tribe for development of the plan
addendum. EPA has not selected a remedy for the Lake and has not designated the Lake
Management Plan as a CERCLA remedy. If EPA moves forward with a “No Further CERCLA
Action” ROD, it would not designate the Lake Management Plan as a CERCLA remedy,
therefore implementation of the plan would not be a CERCLA remedial action and would not be
eligible for CERCLA funding. EPA could provide assistance to the State and the Tribe to
identify other potential funding sources for portions of the plan, but would expect those entities
to be responsible for plan implementation and funding. Should the EPA select the Lake
Management Plan as a remedial action under CERCLA, it is very unlikely that EPA could
provide CERCLA funding for these tasks, given their focus on institutional controls and nutrient
management and because any Fund expenditures would have to be consistent with the state
match obligations of CERCLA Section 104(c). In addition, should the Lake Management Plan
become a CERCLA remedy, EPA would have to determine that it was protective of human
health and environment and it met ARARs (or ARARs were waived) prior to partial deletion
from the NPL. It is not likely this would happen in the short-term, even if lake management
activities were implemented.

It should be noted that an evaluation of Lake conditions will be part of the CERCLA-required
five year review process, regardless of any potential deletion from the NPL (see 2002 ROD,
Section 12.3).

Unfunded Mandate

Page 10, paragraph 4: It would be helpful to include EPA’s view of this issue. There is no
“mandate” for a Lake Management Plan under CERCLA - EPA has not designated a Lake
Management Plan as the CERCLA remedy for the lake. The State of Idaho and local
communities
have expressed interest in managing the lake outside of the CERCLA process. Any costs incurred
in implementing the Lake Management Plan are made to mitigate the presence of hazardous
substances in the Lake, and are made as a result of responsible stewardship and not as result of a
requirement to pay for a Federally mandated program.



                                               23
Page 11, paragraph 2: “...EPA informed the State of Idaho that remediation activities need to
begin in the upper basin before EPA will agree to conduct a partial deletion of the Lake from the
NPL, but the State is unclear whether EPA wants it to pay for those remedial actions.” It is hard
to believe that the State of Idaho is unclear about the requirements for funding remedial actions.
EPA and the State have been implementing work at Bunker Hill for almost 20 years, consistent
with CERCLA funding requirements. Under CERCLA, it is clear that, for a fund-lead remedy,
EPA is responsible for 90% of remedial action costs, and the State is responsible for 10% of
remedial action costs as well as 100% of Operations and Maintenance. This is documented on a
site-specific basis through Superfund State Contracts (SSC). IDEQ has entered into an SSC with
EPA for the OU3 remedy but has declined to enter into an SSC for the OU2 November 2001
ROD amendment (Central Treatment Plant). Therefore, EPA is unable to use available CERCLA
funding to begin remedial action at the Central Treatment Plant without this agreement in place.
EPA has begun remedial actions in OU3.

Recommendation 3-2: “Clarify with the State of Idaho who will pay for remedial actions before
EPA...” It is unclear whether this recommendation refers to remedial actions in the Lake or
upstream. If it refers to upstream, we suggest the following: “...who will pay for upstream
remedial actions...” If this statement refers to actions in the Lake, we suggest the following
revision: “Clarify with the State of Idaho who will pay for lake management activities before
EPA considers a partial deletion of the Lake from the Lake Management Plan.” A clarification of
this issue is provided in a previous comment. EPA has not chosen a remedy for the lake.
Therefore, there are no “remedial actions” to be funded under CERCLA. Should EPA proceed
with the approach of a “No Further CERCLA Action ROD” as supported by the State of Idaho,
the lake management activities will not be eligible for CERCLA funding.

4. Community Involvement and Economic Aspects

Economic Aspects

Page 13, paragraph 1: Based on our discussions regarding recent economic data, we agreed that
this paragraph would be deleted.

Community Involvement

It should also be noted that there currently is considerable community involvement through the
Technical Leadership Group and its Project Focus Teams. Local governments have
representatives on the Technical Leadership Group. Interested citizens are invited to participate
in Project Focus Teams.




                                                24
                                                                              Appendix B

                                   Distribution

Regional Administrator, Region 10
Region 10 Audit Followup Coordinator
Region 10 Superfund Regional Public Liaison
Team Leader, Bunker Hill/Coeur d'Alene Basin Cleanup, Office of Environmental Cleanup,
   Region 10
Assistant Administrator for Solid Waste and Emergency Response (5101T)
Assistant Administrator for Enforcement and Compliance Assurance (2201A)
Comptroller (2731A)
Agency Followup Official (the CFO) (2710A)
Deputy Chief Financial Officer (2710A)
Agency Followup Coordinator (2724A)
Audit Liaison, Office of Solid Waste and Emergency Response (5103T)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator, Office of Public Affairs (1101A)
Inspector General (2410)




                                            25
